No. 20-

 

IN THE

Supreme Court of the United States

‘TRUSTEES OF THE UNITED MINE WORKERS OF AMERICA
COMBINED BENEFIT FUND AND TRUSTEES OF THE UNITED
MINE WORKERS OF AMERICA 1992 BENEFIT PLAN,

Petitioners,
v.

WESTMORELAND COAL CO., ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,094 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 29, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
